APPENDIX

APPENDIX
TABLE OF CONTENTS
Opinion in the United States Court of Appeals for the Second Circuit
(February 8, 2021) ........................................................................................... App. 1
Memorandum of Decision on Defendant’s Motion to Dismiss in the United
States District Court District of Connecticut
(September 26, 2018)..................................................................................... App. 37
Judgment in the United States District Court District of Connecticut
(September 27, 2018)..................................................................................... App. 47
Ruling Denying Motion for Reconsideration in the United States District Court
District of Connecticut
(March 3, 2020) .............................................................................................. App. 48
Order Denying Panel Rehearing in the United States Court of Appeals for the
Second Circuit
(March 24, 2021) ............................................................................................ App. 60

i

Case 20-1044, Document 65-1, 02/08/2021, 3031419, Page1 of 36
20-1044-cv
Grand River Enterprises v. Boughton

United States Court of Appeals
for the Second Circuit
_________________

AUGUST TERM 2020
ARGUED: OCTOBER 15, 2020

DECIDED: FEBRUARY 8, 2021

NO. 20-1044-CV
__________________
GRAND RIVER ENTERPRISES SIX NATIONS, LTD.,
Plaintiff-Appellant,
– v. –
MARK BOUGHTON, COMMISSIONER, CONNECTICUT DEPARTMENT OF
REVENUE SERVICES,
Defendant-Appellee. ∗

BEFORE:
LOHIER, WALKER, Circuit Judges, and STANCEU, Judge. ∗∗

∗

The Clerk of Court is directed to amend the caption as set forth

above.
Chief Judge Timothy C. Stanceu, of the United States Court of
International Trade, sitting by designation.
∗∗

App. 1

Case 20-1044, Document 65-1, 02/08/2021, 3031419, Page2 of 36

Plaintiff-Appellant Grand River Enterprises Six Nations, Ltd.
(“Grand River” or “GRE”) appeals from a September 27, 2018
judgment of the United States District Court for the District of
Connecticut (Warren W. Eginton, Judge) dismissing its action pursuant
to Federal Rule of Civil Procedure 12(b)(6) for failure to state a claim
on which relief can be granted and a March 3, 2019 judgment (Jeffrey
A. Meyer, Judge) denying its motion for reconsideration.
Grand River, a Canadian cigarette manufacturer, sued Defendant-Appellee Mark Boughton, the Commissioner of the Connecticut
Department of Revenue Services (“DRS”), raising constitutional
challenges to a Connecticut statute (the “Reconciliation Requirement,”
Conn. Gen. Stat. § 4-28m(a)(3)) that imposes certain reporting
requirements upon Grand River as a prerequisite to the sale of
GRE’s cigarette brands in Connecticut.

Grand River claimed the

Reconciliation Requirement violates its due process rights and the
Supremacy and Commerce Clauses of the United States Constitution.

2

App. 2

Case 20-1044, Document 65-1, 02/08/2021, 3031419, Page3 of 36

We agree with the District Court that Grand River’s Second
Amended Complaint fails to state a claim upon which relief can be
granted and, accordingly, AFFIRM the judgments of the District
Court.
__________________
ERICK M. SANDLER, Day

Pitney

LLP,

Hartford, CT (Stanley A. Twardy, Jr., Day
Pitney LLP, Stamford, CT and Matthew J.
Letten, Day Pitney LLP, Hartford, CT, on the
brief), for Plaintiff-Appellant.
HEATHER J. WILSON, Assistant Attorney
General, Hartford, CT (Joseph J. Chambers,
Assistant Attorney General, on the brief), for
Defendant-Appellee.
__________________
STANCEU, Judge:
The majority of cigarettes sold in the United States are produced
by manufacturers that have entered into a “Master Settlement
Agreement” (“Agreement”) with a coalition of state attorneys general.
Manufacturers that participate in the Agreement (“Participating

3

App. 3

Case 20-1044, Document 65-1, 02/08/2021, 3031419, Page4 of 36

Manufacturers”) are subject to various requirements, including
restrictions on their advertising practices and the obligation to make
certain payments to state governments to offset harms caused by
smoking. To preserve a level playing field, the Agreement incentivizes
states that have signed the Agreement to impose by statute a slate of
restrictions and obligations on manufacturers that choose not to
participate (“Nonparticipating Manufacturers”).
Connecticut, a signatory to the Agreement, imposes upon
Nonparticipating Manufacturers a reporting requirement known as
the “Reconciliation Requirement.” Described in brief summary, the
Reconciliation Requirement directs each Nonparticipating Manufacturer to report annually to Connecticut’s Department of Revenue
Services its total nation-wide sales of cigarettes on which federal excise
tax is paid, its total interstate cigarette sales, and its total intrastate
cigarette sales. The Reconciliation Requirement is met if the total
nation-wide sales of a manufacturer’s cigarettes do not exceed the sum

4

App. 4

Case 20-1044, Document 65-1, 02/08/2021, 3031419, Page5 of 36

of the interstate and intrastate sales by more than 2.5%.

If this

threshold is exceeded, the manufacturer must explain to the State’s
satisfaction the reason for the discrepancy in order for its cigarette
brands to be sold within the State.
Grand River, a Nonparticipating Manufacturer, brought an
action in the District Court raising constitutional challenges to the
Reconciliation Requirement, claiming it abridges GRE’s rights under
the Fourteenth Amendment Due Process Clause of the U.S. Constitution (and also under the Connecticut State Constitution) for lack of a
rational justification and also is in violation of the Commerce and
Supremacy Clauses of the U.S. Constitution.

Concluding to the

contrary, we hold that the Reconciliation Requirement has a rational
relationship to the State’s legitimate interests in collecting excise taxes
and combatting cigarette smuggling that satisfies both federal and
state due process requirements. We hold, further, that Connecticut has
violated neither the Commerce Clause nor the Supremacy Clause by

5

App. 5

Case 20-1044, Document 65-1, 02/08/2021, 3031419, Page6 of 36

imposing the Reconciliation Requirement on a Nonparticipating
Manufacturer as a condition of permitting that manufacturer’s brands
to be sold within the State.

For these reasons, we AFFIRM the

judgments of the District Court.
I.

BACKGROUND

A. The Master Settlement Agreement
In November 1998, four of the largest tobacco manufacturers in
the United States and the attorneys general of forty-six states, 1 five
territories, and the District of Columbia executed the Master
Settlement Agreement, which sought to supplant further state
lawsuits against tobacco advertising practices and to require tobacco
manufacturers to pay damages to compensate states for healthcare
costs resulting from smoking-related conditions. Beyond the four
original signatory manufacturers, other tobacco manufacturers since

Four states, Florida, Minnesota, Mississippi, and Texas, had reached
individual state-level agreements with tobacco manufacturers prior to the
Master Settlement Agreement.
1

6

App. 6

Case 20-1044, Document 65-1, 02/08/2021, 3031419, Page7 of 36

have signed the Agreement, and as a result the vast majority of
cigarette sales in this country are of brands owned by Participating
Manufacturers.
Participating Manufacturers agreed, inter alia, to restrict
advertising and sponsorships, to dissolve three tobacco-related trade
organizations, and to accept restrictions on lobbying and trade
association activities. They also agreed to fund a youth smoking
prevention organization and to make payments to the settling states in
perpetuity, in amounts determined by each manufacturer’s market
share (with a system for adjusting these payments based on future
sales).
To ensure that Nonparticipating Manufacturers do not gain a
competitive

advantage

over

Participating

Manufacturers,

the

Agreement incentivizes signatory states such as Connecticut to impose
by statute certain obligations on Nonparticipating Manufacturers.
Among other things, signatory states require Nonparticipating

7

App. 7

Case 20-1044, Document 65-1, 02/08/2021, 3031419, Page8 of 36

Manufacturers to deposit into escrow certain amounts, based on sales
figures, to satisfy potential claims for damages resulting from cigarette
smoking, as a parallel to the market share payment obligations to
which the Participating Manufacturers agreed to be bound. See Master
Settlement Agreement § IX(d)(2)(B).

Some states also impose

additional requirements, such as the Reconciliation Requirement at
issue here.
B. The Reconciliation Requirement
In Connecticut, tobacco manufacturers may not sell cigarettes in
the State unless their cigarette brands are listed in a “Directory”
published by the DRS. Conn. Gen. Stat. § 4-28m. To be included in
the Directory, a Participating Manufacturer must be “generally
perform[ing] its financial obligations under the Master Settlement
Agreement.” Id. § 4-28i(a)(1)(A). In contrast, a Nonparticipating
Manufacturer must satisfy the escrow payments described above and
comply with additional statutory requirements, including the
Reconciliation Requirement. Id. § 4-28l(a), (d).

8

App. 8

Case 20-1044, Document 65-1, 02/08/2021, 3031419, Page9 of 36

The Reconciliation Requirement provides in pertinent part as
follows:
The commissioner shall not include or retain in the
directory any brand family of a nonparticipating
manufacturer if the commissioner concludes . . . a
nonparticipating manufacturer’s total nation-wide
reported sales of cigarettes on which federal excise tax is
paid exceeds the sum of (i) its total interstate sales, as
reported under 15 USC 375 et seq., as from time to time
amended, or those made by its importer, and (ii) its total
intrastate sales, by more than two and one-half per cent of
its total nation-wide sales during any calendar year,
unless the nonparticipating manufacturer cures or
satisfactorily explains the discrepancy not later than ten
days after receiving notice of the discrepancy.
Id. § 4-28m(a)(3). Connecticut asserts that the purpose of the
Reconciliation Requirement is to prevent Nonparticipating
Manufacturers from diverting cigarettes into an illicit market
that harms Connecticut residents and reduces the State’s ability
to collect taxes and escrow payments.

9

App. 9

Case 20-1044, Document 65-1, 02/08/2021, 3031419, Page10 of 36

C. The Proceedings in the District Court
On June 29, 2016, Grand River commenced an action in the
District of Connecticut against the Acting Commissioner of the DRS
(“Commissioner”) to challenge the Reconciliation Requirement. GRE
amended its complaint on December 1, 2016. On February 17, 2017,
the Commissioner filed a motion to dismiss the action under Federal
Rule of Civil Procedure 12(b)(6). On July 5, 2017, the District Court
denied this first motion to dismiss. After Grand River filed a second
amended complaint on September 5, 2017, the Commissioner, on
November 17, 2017, again moved to dismiss under Rule 12(b)(6). On
September 26, 2018, the District Court granted this motion, holding
that the Reconciliation Requirement does not violate the Due Process,
Supremacy, or Commerce Clauses. The District Court also denied
Grand River’s claim for a declaratory judgment that it is in compliance
with the Reconciliation Requirement.

The District Court entered

judgment on September 27, 2018. On October 3, 2018, GRE moved for

10

App. 10

Case 20-1044, Document 65-1, 02/08/2021, 3031419, Page11 of 36

reconsideration of the dismissal of its claims under the Commerce
Clause and the Supremacy Clause in the District Court, a motion the
District Court denied on March 3, 2020. This appeal followed.
II.

DISCUSSION

We exercise appellate jurisdiction according to 28 U.S.C. § 1291.
We review de novo the granting of a motion to dismiss, accepting all
factual allegations in the Amended Complaint as true and drawing all
inferences in favor of the nonmoving party. Littlejohn v. City of New
York, 795 F.3d 297, 306 (2d Cir. 2015). “To survive a motion to dismiss,
a complaint must contain sufficient factual matter, accepted as true, to
state a claim to relief that is plausible on its face.” Ashcroft v. Iqbal, 556
U.S. 662, 678 (2009) (internal quotation marks and citation omitted).
Grand River argues on appeal that the District Court erred in
holding that the Reconciliation Requirement does not violate
substantive due process and is not prohibited by the Commerce or

11

App. 11

Case 20-1044, Document 65-1, 02/08/2021, 3031419, Page12 of 36

Supremacy Clauses of the U.S. Constitution. 2 In the alternative, Grand
River argues that the District Court erred in denying relief on its claim
for a declaratory judgment that GRE is in compliance with the
Reconciliation Requirement.

The Commissioner disputes Grand

River’s arguments and further asserts that GRE lacks standing to
pursue this appeal. We address each of these arguments below.
A. Article III Standing
The Commissioner argues that we should dismiss this appeal
for lack of Article III standing, arguing that Grand River, being
currently listed in the Directory, suffers no injury in fact. While Grand
River’s second amended complaint alleges that it has incurred

GRE also argues that the District Court erred in holding that the
Reconciliation Requirement does not violate substantive due process under
the Connecticut Constitution. The requirements to state a violation of
substantive due process under the Connecticut Constitution are the same as
the requirements under the U.S. Constitution, so we analyze both claims
under the same framework. See Ramos v. Town of Vernon, 254 Conn. 799, 837,
761 A.2d 705, 727 (2000) (noting the coextensive nature of state and federal
due process protections while holding open the option to expand the
Connecticut Constitution’s due process rights in the future).
2

12

App. 12

Case 20-1044, Document 65-1, 02/08/2021, 3031419, Page13 of 36

substantial costs to comply with the Reconciliation Requirement, the
Commissioner asserts that Grand River has failed to plead these costs
with sufficient particularity to meet its burden. We disagree with the
Commissioner and conclude that Grand River has adequately pleaded
an injury in fact sufficient to confer Article III standing.
The constitutional minimum of Article III standing is well
established. To meet its burden, a plaintiff must show that it has
“(1) suffered an injury in fact, (2) that is fairly traceable to the
challenged conduct of the defendant, and (3) that is likely to be
redressed by a favorable judicial decision.” John v. Whole Foods Mkt.
Grp., Inc., 858 F.3d 732, 736 (2d Cir. 2017) (quoting Spokeo, Inc. v. Robins,
136 S. Ct. 1540, 1547 (2016)). The Supreme Court has instructed that
an “injury in fact” is an invasion of a legally protected interest that is
both “concrete and particularized” and “actual or imminent, not
conjectural or hypothetical.” Lujan v. Defenders of Wildlife, 504 U.S. 555,
560 (1992) (internal quotation marks omitted). When “a plaintiff is

13

App. 13

Case 20-1044, Document 65-1, 02/08/2021, 3031419, Page14 of 36

himself an object of the action (or foregone action) at issue . . . there is
ordinarily little question that the action or inaction has caused him
injury, and that a judgment preventing or requiring the action will
redress it.” Id. at 561–62.
A regulated entity may plead an “injury in fact” by plausibly
alleging compliance costs associated with an increased regulatory
burden. The Third Circuit has referred to economic injury in the form
of “compliance costs” as “a classic injury-in-fact,” Am. Farm Bureau
Fed’n v. EPA, 792 F.3d 281, 293 (3d Cir. 2015), and the Fifth Circuit has
held that “[a]n increased regulatory burden typically satisfies the
injury in fact requirement,” Contender Farms, L.L.P. v. U.S. Dep’t of
Agric., 779 F.3d 258, 266 (5th Cir. 2015). The D.C. Circuit, as well, has
applied Lujan to confer Article III standing on directly regulated
entities that “must incur costs to ensure that they are properly
complying with the terms” of a new regulatory regime. State Nat’l
Bank of Big Spring v. Lew, 795 F.3d 48, 53 (D.C. Cir. 2015)

14

App. 14

Case 20-1044, Document 65-1, 02/08/2021, 3031419, Page15 of 36

(Kavanaugh, J.).

Although we have addressed this issue only in

passing, see Bridgeport & Port Jefferson Steamboat Co. v. Bridgeport Port
Auth., 567 F.3d 79, 86 (2d Cir. 2009), the decisions of our sister circuits
reflect a nearly uniform approach with which we agree. See, e.g., City
of Kennett v. EPA, 887 F.3d 424, 431 (8th Cir. 2018); Weaver’s Cove
Energy, LLC v. Rhode Island Coastal Res. Mgmt. Council, 589 F.3d 458, 467
(1st Cir. 2009).
Applying these standards, we have little difficulty concluding
that Grand River has standing to pursue its claims.

As a

Nonparticipating Manufacturer, Grand River is the object of
Connecticut’s Reconciliation Requirement.

It alleges that it “has

expended over $300,000 in seeking and obtaining approval to be listed
on the Tobacco Directory, and has invested a similar amount in
regulatory and compliance fees and payments since obtaining such
approval.” Second Am. Compl. ¶ 9; see also id. ¶¶ 35, 36. Because at
the pleading stage we “presum[e] that general allegations embrace

15

App. 15

Case 20-1044, Document 65-1, 02/08/2021, 3031419, Page16 of 36

those specific facts that are necessary to support the claim,” we
reasonably infer that some of these costs were incurred to comply with
the Reconciliation Requirement and that Grand River’s compliance
costs will continue so long as it remains subject to the regulation. John,
858 F.3d at 737 (alteration in original) (quoting Lujan, 504 U.S. at 561).
These allegations suffice to plead an injury in fact that is fairly
traceable to the Commission’s enforcement of the Reconciliation
Requirement and would be redressed by a favorable judicial decision.
B. Substantive Due Process
Grand River claims that the Reconciliation Requirement violates
the substantive guarantees of the Due Process Clause, U.S. CONST.
amend. XIV, § 1. On appeal, GRE argues, first, that it has a protected
interest in maintaining its current listing in the Directory and, second,
that the Reconciliation Requirement is arbitrary and irrational and
thereby fails the rational basis test. In considering this issue, we
assume (as did the District Court), without deciding, that Grand River

16

App. 16

Case 20-1044, Document 65-1, 02/08/2021, 3031419, Page17 of 36

has a constitutionally protected interest in maintaining its listing in the
Directory, which is necessary for it to continue to market cigarettes in
Connecticut.

We proceed to consider, therefore, whether the

Reconciliation Requirement is “rationally related to a legitimate state
interest.” Lange-Kessler v. Dep't of Educ., 109 F.3d 137, 140 (2d Cir.
1997).
It scarcely can be argued that Connecticut lacks a legitimate state
interest in preventing smuggling and tax evasion that affects, or
potentially affects, the distribution within its borders of cigarettes, an
extensively taxed product with adverse health effects. The inquiry
relevant to GRE’s substantive due process claim is, therefore, whether
the Reconciliation Requirement is rationally related to that state
interest.

Grand River offers three arguments to challenge that

conclusion: (1) that the Reconciliation Requirement is arbitrary in
affecting only Nonparticipating Manufacturers, (2) that it also is
arbitrary in pursuing a national accounting of sales while

17

App. 17

Case 20-1044, Document 65-1, 02/08/2021, 3031419, Page18 of 36

Connecticut’s interest is limited to preventing illicit sales within the
State, and (3) that no evidence proves the Reconciliation Requirement
in fact reduces cigarette smuggling.
The logic of the Reconciliation Requirement is apparent from the
types of reporting it seeks. Federal excise taxes are paid when a
cigarette is manufactured in, or imported into, the United States, at
which point it enters the flow of commerce in this country, see 26 U.S.C.
§ 5701(b), while state tobacco taxes typically are charged when
cigarettes enter retail sale and thereby leave the flow of commerce, see,
e.g., Conn. Gen. Stat. § 12-430(8). The Reconciliation Requirement
directs a Nonparticipating Manufacturer to report how many of its
cigarettes entered the flow of commerce, when federal excise tax was
charged, and then how many left the flow of commerce with,
presumably, state taxes properly paid. We do not view it as irrational
or arbitrary for a state legislature to conclude that data allowing a
comparison of the quantities of a manufacturer’s cigarettes entering

18

App. 18

Case 20-1044, Document 65-1, 02/08/2021, 3031419, Page19 of 36

U.S. commerce with the quantities leaving U.S. commerce can reveal
possible smuggling activity. A discrepancy between a manufacturer’s
data sets, unless explained, is a potential indicator of state tax evasion
involving cigarettes diverted from the legitimate flow of commerce for
eventual untaxed sale. In combatting cigarette smuggling, federal law
employs a similar logic as to the use of data on quantities of cigarettes
in commerce. The Prevent All Cigarette Trafficking Act (“PACT Act”),
15 U.S.C. § 375 et seq., directs that reports of the quantities of cigarettes
shipped into each state be reported to that state’s tobacco tax
administrator (as well as to localities and Indian tribes that charge
tobacco taxes) for comparison with state and local records.
Grand River’s argument that the Reconciliation Requirement
fails rational basis review for arbitrarily affecting only Nonparticipating Manufacturers is not convincing. Participating Manufacturers
are subject to information collection under the Agreement. See Master
Settlement Agreement § II(jj). This causes us to conclude that limiting

19

App. 19

Case 20-1044, Document 65-1, 02/08/2021, 3031419, Page20 of 36

the effect of the Reconciliation Requirement to Nonparticipating
Manufacturers does not invalidate it for arbitrariness.
Nor are we persuaded by GRE’s argument that Connecticut
improperly collects nationwide information from a manufacturer
when its interest is confined to illicit sales within its own borders. If a
manufacturer’s cigarettes are diverted from the stream of legitimate
commerce anywhere in the United States, it is rational, and not
arbitrary, for a state legislature to anticipate that the diverted
cigarettes may cause harm in that state.
Finally, Grand River’s argument that the Reconciliation
Requirement has not been demonstrated to prevent smuggling is
unavailing.

Rational basis review is not a post-hoc test of the

effectiveness of a legislative policy. See Beatie v. City of New York, 123
F.3d 707, 712 (2d Cir. 1997) (“We will not strike down a law as
irrational simply because it may not succeed in bringing about the
result it seeks to accomplish.” (citing Seagram & Sons, Inc. v. Hostetter,

20

App. 20

Case 20-1044, Document 65-1, 02/08/2021, 3031419, Page21 of 36

384 U.S. 35, 50 (1966)). Rather, we examine whether, at enactment,
there is a rational link between the harm a statute is intended to
remedy and the method by which a legislature chooses to address it.
See F.C.C. v. Beach Commc’ns, Inc., 508 U.S. 307, 313–14, (1993)
(requiring only “’plausible reasons’” for legislative action under
rational basis review (quoting U.S. R.R. Ret. Bd. v. Fritz, 449 U.S. 166,
179 (1980))). Grand River cannot demonstrate that it is irrational or
arbitrary for a state legislature to regard unexplained discrepancies
between quantities of cigarettes entering, and leaving, U.S. commerce
as a potential subject of investigation that could uncover illegal activity
affecting that state.
Of course, there are legitimate reasons why reporting under the
Reconciliation Requirement that exceeds the 2.5% threshold might not
indicate smuggling activity.

Among other things, the number of

cigarettes reported on federal excise tax forms may conflict with the
number of cigarettes reported pursuant to the PACT Act because

21

App. 21

Case 20-1044, Document 65-1, 02/08/2021, 3031419, Page22 of 36

PACT Act filings exclude intrastate sales, cigarette inventory, and—as
Grand River argues—sales within “Indian Country.” But notably, the
Reconciliation Requirement affords a Nonparticipating Manufacturer
the opportunity to explain any discrepancies before imposing the
sanction of de-listing from the Directory. Conn. Gen. Stat. § 4-28(m)(3).
Even for manufacturers that routinely report a discrepancy of greater
than 2.5%, the expectation that the Commissioner will scrutinize the
discrepancy may encourage accurate record-keeping practices that
could reduce the number of cigarettes diverted to an illicit market.
In summary, we find no error in the District Court’s dismissal
of Grand River’s claim that the Reconciliation Requirement is
constitutionally impermissible on substantive due process grounds.
C. The Dormant Commerce Clause
Grand River argues that the Reconciliation Requirement
violates the “dormant” (or “negative”) Commerce Clause, which is an
implied limitation on a state’s power to regulate commerce outside its

22

App. 22

Case 20-1044, Document 65-1, 02/08/2021, 3031419, Page23 of 36

borders stemming from the grant to the federal government of the
power to “regulate commerce . . . among the several states.” U.S.
CONST. art. I, § 8, cl. 3. GRE maintains that the Reconciliation Requirement impermissibly regulates its out-of-state commercial business
decisions by forcing it to choose importers and distributors that will
provide it with their business records, including federal excise tax
records and PACT Act reports, so that Grand River can comply with
the reporting demanded by the Reconciliation Requirement.
A state law may run afoul of the dormant Commerce Clause if
it “clearly discriminates against interstate commerce in favor of
intrastate commerce[,] . . . if it imposes a burden on interstate
commerce incommensurate with the local benefits secured” when
viewed according to the balancing test of Pike v. Bruce Church, Inc., 397
U.S. 137, 142 (1970), or “if it has the practical effect of extraterritorial
control of commerce occurring entirely outside the boundaries of the
state in question.” Grand River Enters. Six Nations, Ltd. v. Pryor, 425

23

App. 23

Case 20-1044, Document 65-1, 02/08/2021, 3031419, Page24 of 36

F.3d 158, 168 (2d Cir. 2005) (quoting Freedom Holdings, Inc. v. Spitzer,
357 F.3d 205, 216 (2d Cir. 2004)). Of these three possible grounds,
Grand River confines its arguments to the third, extraterritoriality.
Relying on Healy v. Beer Institute, Inc., 491 U.S. 324 (1989), GRE argues
that the statute must be invalidated as impermissibly extraterritorial
because its practical effect is to control conduct outside the borders of
Connecticut. Specifically, Grand River contends that the “practical
effect” of the Reconciliation Requirement is to require each of its U.S.
importers, including those who do no business in Connecticut, to
provide the State with records on the number of cigarettes on which
the importers paid federal excise tax and the number of cigarettes each
importer sold into interstate and intrastate commerce for each year.
Grand River thus grounds its theory of extraterritoriality in the
effect Connecticut’s Reconciliation Requirement has upon its
importers, even though the directly regulated party is Grand River
itself.

The practical effect of the Reconciliation Requirement on

24

App. 24

Case 20-1044, Document 65-1, 02/08/2021, 3031419, Page25 of 36

interstate commerce, being indirect as well as incidental to the purpose
of the statute, is not analogous to that of the economic regulation held
to violate the dormant Commerce Clause in Healy, the principal case
Grand River cites as authority for its position. Healy invalidated a
Connecticut statute requiring out-of-state shippers of beer to affirm
that their prices for beer sold to Connecticut wholesalers, at the time
of posting, were no higher than the prices at which the products were
sold in bordering states. 491 U.S. at 337. The pricing decisions of outof-state wholesalers were directly controlled by this price-regulating
provision, which the Supreme Court held to have had the
impermissible effect of controlling the wholesalers’ commercial
pricing and marketing activity that occurred outside of Connecticut.
Id.

“Moreover, the practical effect of this affirmation law, in

conjunction with the many other beer-pricing and affirmation laws
that have been or might be enacted throughout the country, is to create
just the kind of competing and interlocking local economic regulation

25

App. 25

Case 20-1044, Document 65-1, 02/08/2021, 3031419, Page26 of 36

that the Commerce Clause was meant to preclude.” Id. Here, the
Reconciliation Requirement does not have, and is not intended to
have, a controlling effect on the cigarette sales transactions involving
the importers. Its reach is to the post-sale reporting of transactions.
The effect on the importers, if any, is only incidental to the purpose of
the Reconciliation Requirement, which is to allow for investigation of
cigarette smuggling with the potential to affect adversely the State of
Connecticut. Moreover, the adoption of this or similar reporting by
other states would not constitute the “competing and interlocking
local economic regulation” of a kind found objectionable by the
Supreme Court in Healy. Id.; see also id. at 336 (considering “what effect
would arise if not one, but many or every, State adopted similar
legislation”). To the contrary, it is akin to the very sort of regulation
that we have previously permitted. See VIZIO, Inc. v. Klee, 886 F.3d
249, 256 (2d Cir. 2018) (holding that Connecticut’s E-Waste law, which
calculates fees based on national market share data, “does nothing to

26

App. 26

Case 20-1044, Document 65-1, 02/08/2021, 3031419, Page27 of 36

control interstate commerce, but rather merely considers out-of-state
activity in imposing in-state charges”).
Grand River also cites American Booksellers Foundation v. Dean,
342 F.3d 96 (2d Cir. 2003), but that decision too is inapposite. In
American Booksellers Foundation, we held that a Vermont statute
prohibiting internet dissemination of sexually explicit materials
harmful to minors had an extraterritorial effect prohibited by the
dormant Commerce Clause. We reasoned that Vermont had projected
“onto the rest of the nation” its prohibition on the dissemination of that
material through the internet. 342 F.3d at 103. “Although Vermont
aims to protect only Vermont minors, the rest of the nation is forced to
comply with its regulation or risk prosecution.” Id. Connecticut’s
Reconciliation Requirement does not seek to, and in practical effect
does not, project onto the rest of the nation a scheme to prohibit
cigarette sales or regulate the commercial terms of them and instead
requires reporting of those sales, regardless of the terms, after the fact.

27

App. 27

Case 20-1044, Document 65-1, 02/08/2021, 3031419, Page28 of 36

Grand River also cites, unavailingly, Edgar v. MITE Corp., 457
U.S. 624, 642–43 (1982), which, unlike the Reconciliation Requirement,
involved a state statute that directly regulated interstate commerce. In
Edgar, the Supreme Court invalidated an Illinois statute that granted
state officials authority to block corporate takeovers by regulating
tender offers and that applied even where all the shareholders were
residents of other states. Stating that the Commerce Clause “permits
only incidental regulation of interstate commerce by the States” and
that “direct regulation is prohibited,” the Supreme Court held that the
Illinois statute violated the Commerce Clause because it “directly
regulates and prevents, unless its terms are satisfied, interstate tender
offers which in turn would generate interstate transactions.” 3 457 U.S.

The Supreme Court concluded that the Illinois statute also was
precluded by the Commerce Clause under the balancing test of Pike because
it imposed burdens on interstate commerce that were excessive in light of
the local interests of the Act in protecting resident security holders and
regulating the corporate affairs of companies incorporated under Illinois
law. See Edgar v. MITE Corp., 457 U.S. 624, 643–46 (1982). Grand River makes
no argument invoking the Pike balancing test.
3

28

App. 28

Case 20-1044, Document 65-1, 02/08/2021, 3031419, Page29 of 36

at 640.

While it requires reporting of interstate transactions, the

Reconciliation Requirement neither regulates nor precludes them.
In summary, we conclude that the District Court correctly held
that the Reconciliation Requirement is not prohibited by the dormant
Commerce Clause.
D. Supremacy Clause
Grand River also claims that the Reconciliation Requirement
violates the Supremacy Clause, U.S. CONST. art. VI, cl. 2, because the
Reconciliation Requirement is preempted by the PACT Act and it is
impossible for Grand River to comply with both statutes. Specifically,
Grand River contends that this impossibility arises because (1) Grand
River cannot reconcile its nationwide sales of cigarettes against
interstate sales reported pursuant to the PACT Act, and (2) the
Reconciliation Requirement uses PACT Act reports for purposes that
are prohibited by federal law. According to GRE, this is a case in
which “state law penalizes what federal law requires.” Appellant’s Br.

29

App. 29

Case 20-1044, Document 65-1, 02/08/2021, 3031419, Page30 of 36

53 (quoting In re Methyl Tertiary Butyl Ether (“MTBE”) Prods. Liab. Litig.,
725 F. 3d 65, 97 (2d Cir. 2013) (“MTBE”)).
We review a district court’s application of preemption principles de novo. New York SMSA Ltd. P’ship v. Town of Clarkstown, 612
F.3d 97, 103 (2d Cir. 2010) (per curiam) (“SMSA”). The doctrine of
federal preemption provides that “[u]nder the Supremacy Clause of
the Constitution, state and local laws that conflict with federal law are
without effect.” Id. (internal quotation marks omitted). In SMSA, we
described the three general types of preemption:
(1) express preemption, where Congress has expressly
preempted local law; (2) field preemption, where
Congress has legislated so comprehensively that federal
law occupies an entire field of regulation and leaves no
room for state law; and (3) conflict preemption, where
local law conflicts with federal law such that it is
impossible for a party to comply with both or the local
law is an obstacle to the achievement of federal
objectives.
Id. at 104 (internal quotation marks omitted). Grand River’s argument
is, essentially, that the Reconciliation Requirement violates the

30

App. 30

Case 20-1044, Document 65-1, 02/08/2021, 3031419, Page31 of 36

Supremacy Clause due to “impossibility” preemption, the first of two
types of conflict preemption, which is where “local law conflicts with
federal law such that it is impossible for a party to comply with both.”
Id. For a plaintiff to establish impossibility preemption, “it must show
that federal and state laws ‘directly conflict.’” MTBE, 725 F.3d at 99
(quoting Am. Tel. & Tel. Co. v. Cent. Office Tel., Inc., 524 U.S. 214, 227
(1998)).
We do not find merit in plaintiff-appellant’s preemption argument. As is pertinent here, the PACT Act requires reporting by “[a]ny
person who sells, transfers, or ships for profit cigarettes or smokeless
tobacco in interstate commerce . . . or who advertises or offers cigarettes or smokeless tobacco for such a sale, transfer, or shipment.”
15 U.S.C. § 376(a). A party regulated thereunder must file with the
tobacco tax administrator of the state into which a shipment was made
(and to the administrators and law enforcement officers of local
governments and Indian tribes that apply their own tobacco taxes)

31

App. 31

Case 20-1044, Document 65-1, 02/08/2021, 3031419, Page32 of 36

a memorandum listing the recipient’s name and address, the brands
and quantities of cigarettes (or smokeless tobacco) shipped, and the
information of the shipper acting on behalf of the delivery seller. Id.
Grand River argues that even if its importers file all reports
required by the PACT Act, the figures Grand River submits to
Connecticut’s Department of Revenue Services to comply with the
Reconciliation Requirement inevitably will not reconcile within the
2.5% margin. GRE explains that the PACT Act reporting does not
apply, for example, to sales taking place within a single state and to
sales of cigarettes distributed exclusively within Indian Country. This
argument is unconvincing because a Nonparticipating Manufacturer
need not achieve actual, numerical reconciliation within the 2.5%
variance in order to achieve compliance with the Reconciliation
Requirement; the statute affords the Nonparticipating Manufacturer
the opportunity to “satisfactorily explain[] the discrepancy.” Conn.
Gen. Stat. § 4-28(m)(3). Grand River in fact has maintained its listing

32

App. 32

Case 20-1044, Document 65-1, 02/08/2021, 3031419, Page33 of 36

in the Directory during the pendency of this litigation. Therefore, we
do not agree with Grand River’s view that the federal and state statutes
“directly conflict” or that the Reconciliation Requirement “penalizes
what federal law requires.” MTBE, 725 F.3d at 97, 99. Instead, the
Reconciliation Requirement and the PACT Act can “stand together” as
reporting requirements. Id. at 102.
As a second argument under the Supremacy Clause, Grand
River maintains that the Reconciliation Requirement violates the
PACT Act by using PACT Act reports for impermissible purposes. We
are unconvinced by this argument as well. PACT Act reports may be
used “solely for the purposes of the enforcement of this chapter and
the collection of any taxes owed on related sales of cigarettes and
smokeless tobacco.”

15 U.S.C. § 376(c) (emphasis added).

The

Reconciliation Requirement uses PACT Act reporting for a purpose—
the investigation of possible tax evasion involving cigarettes—
expressly contemplated by the PACT Act.

33

App. 33

Case 20-1044, Document 65-1, 02/08/2021, 3031419, Page34 of 36

E. Grand River’s Request for a Declaratory Judgment
Grand River sought a declaratory judgment that it is in compliance with the Reconciliation Requirement in the District Court, in the
event the Reconciliation Requirement is upheld as constitutional. On
appeal, Grand River argues that the District Court erred in dismissing
its request for a declaratory judgment as moot. We review a District
Court’s decision to refuse to issue a declaratory judgment for abuse of
discretion. Dow Jones & Co. v. Harrods Ltd., 346 F.3d 357, 359 (2d Cir.
2003).
Grand River seeks a declaratory judgment on the ground that it
has provided adequate reasons why it cannot reconcile its federal
excise tax and state sales figures and, therefore, is entitled to a decision
that it is in compliance with the Reconciliation Requirement. GRE
currently is listed in the Directory and so has complied with the
Reconciliation Requirement for the most recent year. In the future,
should the State of Connecticut rule that Grand River is no longer in

34

App. 34

Case 20-1044, Document 65-1, 02/08/2021, 3031419, Page35 of 36

compliance with the Reconciliation Requirement, Grand River might
be in a position to pursue its potential administrative and judicial
remedies in contesting that determination.

The administrative

determination of whether GRE has “satisfactorily explained” any
discrepancies is for the DRS to make in the first instance for each year
for which Grand River seeks listing in the Directory. It was not an
abuse of discretion for the District Court to decline to make this
determination.
III.

CONCLUSION

We hold that Connecticut’s Reconciliation Requirement is
rationally related to the State’s legitimate interest in preventing
evasion of state tobacco taxes and, therefore, does not violate GRE’s
due process rights, that any incidental burdens the Reconciliation
Requirement imposes on interstate commerce do not have an
impermissible extraterritorial reach inconsistent with the dormant
Commerce Clause, and that the Reconciliation Requirement is not

35

App. 35

Case 20-1044, Document 65-1, 02/08/2021, 3031419, Page36 of 36

preempted by federal law so as to violate the Supremacy Clause. We
further hold that the District Court’s decision to not issue Grand River
a declaratory judgment was a permissible exercise of its discretion.
For the foregoing reasons, we AFFIRM the September 27, 2018
and March 3, 2019 judgments of the District Court.

36

App. 36

Case 3:16-cv-01087-JAM Document 100 Filed 09/26/18 Page 1 of 10

UNITED STATES DISTRICT COURT
DISTRICT OF CONNECTICUT
GRAND RIVER ENTERPRISES
SIX NATIONS LTD,
Plaintiff,

:
:
:
:
:
:
:
:
:
:

v.
KEVIN B. SULLIVAN,
Commissioner of Revenue Services of the
State of Connecticut,
Defendant.

3:16-cv-01087-WWE

MEMORANDUM OF DECISION ON DEFENDANT’S MOTION TO DISMISS
Plaintiff Grand River Enterprises Six Nations LTD alleges that defendant Kevin B.
Sullivan, as Commissioner of Revenue Services, threatens to revoke plaintiff’s license to have
its tobacco products sold in Connecticut based upon plaintiff’s inability to reconcile
nationwide sales with federal interstate shipping reports. Plaintiff asserts that removal from
the State’s Tobacco Directory under these circumstances would violate its constitutional
right to due process, as well as the Supremacy Clause and the Commerce Clause of the
United States Constitution.
Defendant has moved to dismiss plaintiff’s second amended complaint in its entirety.
For the following reasons, defendant’s motion will be granted.
BACKGROUND
The following background is taken from plaintiff’s second amended complaint,
which is accepted as true for purposes of this decision.
Plaintiff’s claims focus principally on recent amendments to Conn. Gen. Stat. § 428m(a)(3). The amendments first took effect with respect to plaintiff’s Connecticut state
regulatory filings that were submitted on April 30, 2016. The amendments purport to

1

App. 37

Case 3:16-cv-01087-JAM Document 100 Filed 09/26/18 Page 2 of 10

authorize revocation of plaintiff’s right and license to have its tobacco products sold in
Connecticut if plaintiff’s regulatory filings cannot reconcile the number of products sold
nationwide by importers of its products (as measured by the importer’s national federal
excise tax returns) with the number of products shipped by these importers throughout the
United States in Interstate Commerce (as evidenced by federal shipping reports required
under federal law). The amendments thus purport to permit revocation of plaintiff’s license
in Connecticut based on the ability to reconcile two sets of federal regulatory filings of
independent, third parties (importers), under two separate federal laws that federal law itself
does not require to be reconciled.
The federal tax laws measure the volume of cigarettes entered into U.S. commerce
nationwide, while the federal shipping laws require reporting of tobacco products shipped or
sold nationwide in “Interstate Commerce,” which does not include products shipped
intrastate or within or among Indian Country (as that term is defined under federal law) after
importation into the United States. The federal shipping law at issue requires that
Connecticut receive certain reports each month for sales and shipments into Connecticut,
and Connecticut may use the information contained in such reports only for the purpose of
enforcing that federal law. The information received must be kept confidential according to
the federal law’s confidentiality requirements.
Without prejudice to its rights and in accordance with the amendments, plaintiff has
provided defendant with federal tax returns and federal shipping reports filed by those
importers in 2015 and 2016 that operated outside of Native American land (as requested by
defendant); however, the numbers of cigarettes reported in each set of reports cannot be
reconciled with the total number of cigarettes imported into the U.S., because three
importers do not file shipping reports (as they distribute plaintiff’s products solely within
2

App. 38

Case 3:16-cv-01087-JAM Document 100 Filed 09/26/18 Page 3 of 10

Indian Country); and a number of plaintiff’s products after entering U.S. commerce are sold
and shipped exclusively intrastate (for which no federal shipping report is required) or are
held in inventory that carries over from prior years or is carried over until the next calendar
year.
Plaintiff alleges that defendant’s threat of revocation of plaintiff’s license under these
circumstances violates its right to substantive due process, the Commerce Clause, and the
Supremacy Clause of the United States Constitution, as well as the Connecticut Constitution
equivalent.
DISCUSSION
At the outset, defendant argues that plaintiff lacks standing because it has alleged no
concrete injury. Citing to paragraphs 9 and 32 of its second amended complaint, plaintiff
responds that it has pleaded factual allegations of particularized injury in the form of
substantial costs expended in complying with the Commissioner’s demands, which are
allegedly based on unconstitutional interpretation of § 4-28m(a)(3)(C). Although the second
amended complaint does allege that plaintiff “has expended over $300,000 in seeking and
obtaining approval to be listed on the Tobacco Directory,” it does not specifically attribute
any portion of that cost to compliance with the statutory provision at issue, Conn. Gen. Stat.
§ 4-28m(a)(3)(C). Plaintiff maintains that a “fair reading” of the second amended complaint
should presume that plaintiff’s alleged economic injuries are fairly traceable to complying
with § 4-28m(a)(3)(C). Assuming that plaintiff has adequately alleged standing, or that it
could amend its complaint to do so, the second amended complaint will nevertheless be
dismissed for the reasons that follow.

3

App. 39

Case 3:16-cv-01087-JAM Document 100 Filed 09/26/18 Page 4 of 10

Due Process
Defendant argues that plaintiff’s due process claim should fail because plaintiff has
no protected property or liberty interest in being listed on the State’s Tobacco Directory.
Moreover, defendant contends that plaintiff can seek review of any future denial in both
state administrative and judicial fora. Finally, defendant submits that, regardless of plaintiff’s
property interest in a license or its available remedies upon a denial, § 4-28m(a)(3)(C) satisfies
the rational basis standard of review.
Plaintiff responds that it has a due process interest in its license to sell tobacco based
upon the issuing authority’s lack of discretion to deny the benefit. See Mordukhaev v. Daus,
Fed. Appx. 16, 18 (2d Cir. 2012) (“[T]he existence of an entitlement turns on whether the
issuing authority lacks discretion to deny [the benefit], i.e., is required to issue it upon
ascertainment that certain objectively ascertainable criteria have been met.”). Plaintiff asserts
that the entire process is unconstitutional, regardless of state administrative and judicial
remedy. Plaintiff argues that regardless of the State’s proffered motives for § 4-28m(a)(3)(C),
the statute is an irrational and arbitrary means of achieving these interests because the
inability to reconcile the numbers in question is a result of federal law and has no bearing on
whether the manufacturer’s cigarettes were diverted to the illicit market.
Defendant submits that there is a rational relationship between § 4-28m(a)(3)(C) and
a legitimate legislative purpose: Lawmakers sought to grant state certification only to those
manufacturers that can effectively track their cigarette sales, and can demonstrate, through
diligent recordkeeping, that the vast majority of their cigarettes are being sold to distributors
or retailers that comply with applicable federal and state reporting and taxation requirements.
By requiring nonparticipating manufacturers to demonstrate that they can
track virtually all of their cigarettes from the point of manufacture or
importation to the point of retail sale, Connecticut hopes to reduce state tax
4

App. 40

Case 3:16-cv-01087-JAM Document 100 Filed 09/26/18 Page 5 of 10

evasion; increase compliance with the State's escrow statute, Conn. Gen. Stat.
§ 4-28i; and protect Connecticut residents from the many adverse public health
effects, such as smoking initiation by minors, that are likely to occur wherever
illegal, artificially underpriced, cigarettes are available.
Pl.’s Mem. 14 [ECF No. 82, Ex. 1].
Accepting that these are legitimate state interests, plaintiff attacks defendant’s
reconciliation requirement as a means of supporting them.
Section 4-28m(a)(3) provides in relevant part:
(3) The commissioner shall not include or retain in the directory any brand
family of a nonparticipating manufacturer if the commissioner concludes …
(C) a nonparticipating manufacturer's total nation-wide reported sales of
cigarettes on which federal excise tax is paid exceeds the sum of (i) its total
interstate sales, as reported under 15 USC 375 et seq. [PACT Act] , as from
time to time amended, or those made by its importer, and (ii) its total intrastate
sales, by more than two and one-half per cent of its total nation-wide sales
during any calendar year, unless the nonparticipating manufacturer cures or
satisfactorily explains the discrepancy not later than ten days after receiving
notice of the discrepancy.
Plaintiff submits that the PACT Act exempts intrastate shipments and shipments
within Indian Country from its reach, so plaintiff cannot reconcile the number of cigarettes
reported on its importers’ excise tax forms with the number reported on their PACT Act
forms as required by § 4-28m(a)(3)(C). But plaintiff all but ignores the provision allowing
manufacturers to explain such a discrepancy to the commissioner. Indeed, plaintiff labels
the § 4-28m(a)(3)(C)’s requirement as impossible, yet plaintiff has been repeatedly certified
to the Tobacco Directory based upon defendant’s exercise of discretion in accepting
plaintiff’s explanations.
Section 4-28m(a)(3)(C)’s reconciliation requirement is not irrational merely because
plaintiff has a satisfactory explanation for its disparity. Some manufacturers may lack a good
explanation; for others, reconciliation is possible, as would be the case in the absence of
intrastate or Indian Country shipments (presuming no other nefarious activity). Given the
5

App. 41

Case 3:16-cv-01087-JAM Document 100 Filed 09/26/18 Page 6 of 10

deferential standard, § 4-28m(a)(3)(C) can be viewed as rational means to reduce tax evasion;
increase compliance with the escrow statute, and protect Connecticut residents from the
many adverse public health effects of tobacco.
Thus, it may be seen that today it is very difficult to overcome the strong
presumption of rationality that attaches to a statute. We will not strike down a
law as irrational simply because it may not succeed in bringing about the result
it seeks to accomplish, Seagram & Sons, Inc. v. Hostetter, 384 U.S. 35, 50, 86 S.Ct.
1254, 1263, 16 L.Ed.2d 336 (1966), because the problem could have been
better addressed in some other way, Mourning, 411 U.S. at 378, 93 S.Ct. at
1665 or because the statute's classifications lack razor-sharp
precision, Dandridge, 397 U.S. at 485, 90 S.Ct. at 1161. Nor will a statute be
overturned on the basis that no empirical evidence supports the assumptions
underlying the legislative choice. Vance, 440 U.S. at 110–11, 99 S.Ct. at 949–
50. To succeed on a claim such as this, “those challenging the legislative
judgment must convince the court that the legislative facts on which the
classification is apparently based could not reasonably be conceived to be true
by the governmental decisionmaker.” Id. at 111, 99 S.Ct. at 949.
Beatie v. City of New York, 123 F.3d 707, 712 (2d Cir. 1997). Plaintiff’s complaint fails
plausibly to allege that § 4-28m(a)(3)(C) cannot satisfy the rational basis standard of review.
See Alliance of Auto. Mfrs., Inc. v. Currey, 610 Fed. Appx. 10, 14 (2d Cir. 2015).
Accordingly, plaintiff’s due process claim will be dismissed.
Supremacy Clause
Defendant argues that Congress intended to support rather than displace state or
local laws that regulate and control the sale of cigarettes. The Supreme Court has instructed
courts to presume that federal statutes do not preempt state law. See Bond v. U.S., 134 S.Ct.
2077, 2088-89 (2014) (“[I]t is incumbent upon the federal courts to be certain of Congress'
intent before finding that federal law overrides the usual constitutional balance of federal
and state powers.”).
Plaintiff responds that the Supremacy Clause restricts the power of states to adopt
policies that conflict with federal laws. When a federal statute does not contain an express
preemption provision, state law nevertheless must yield to federal law if Congress has
6

App. 42

Case 3:16-cv-01087-JAM Document 100 Filed 09/26/18 Page 7 of 10

evinced an intent that federal law is to occupy the field, or if there is an actual conflict
between state and federal law. See Altria Group, Inc. v. Good, 555 U.S. 70, 76-77 (2008).
Plaintiff submits that the reconciliation requirement of § 4-28m(a)(3)(C) is preempted by the
PACT Act because it is impossible for plaintiff to comply with both statutes.
As discussed previously, § 4-28m(a)(3)(C) purports to require cigarette
manufacturers to reconcile within two and one-half percent of cigarettes
reported for federal excise tax purposes with the number reported, in effect,
under the PACT Act. The PACT Act, on the other hand, makes this
reconciliation impossible in certain circumstances because certain sales and
shipments of cigarettes are exempt from the reporting requirements.
Pl.’s Resp. 27 [ECF No. 86].
The Court is not persuaded that § 4-28m(a)(3)(C) and the PACT Act are in conflict.
Defendant points out that plaintiff has continuously complied with the challenged statute for
the past two years, as have the other three similarly situated manufacturers that are listed on
the Connecticut Tobacco Directory. Moreover, the parties agree that plaintiff is in
compliance with the PACT Act, so plaintiff’s compliance with § 4-28m(a)(3)(C) has not
somehow forced it to violate federal regulations. Plaintiff is listed on the Directory in part
due to its compliance with both statutes, so the argument that dual compliance is impossible
is unavailing. Plaintiff’s Supremacy Clause claim, based on alleged conflict between federal
and state law, will be dismissed.
Commerce Clause
Defendant argues that plaintiff’s allegations are inadequate to state a plausible
Commerce Clause violation.
The Supreme Court has recognized that “there is a residuum of power in the
state to make laws governing matters of local concern which nevertheless in
some measure affect interstate commerce or even, to some extent, regulate
it.” Kassel v. Consol. Freightways Corp. of Del., 450 U.S. 662, 669, 101 S.Ct. 1309,
67 L.Ed.2d 580 (1981) (internal quotation marks omitted). Accordingly, “[t]he
Commerce Clause does not ... invalidate all State restrictions on
commerce.” Id. A state statute or regulation may violate the dormant
7

App. 43

Case 3:16-cv-01087-JAM Document 100 Filed 09/26/18 Page 8 of 10

Commerce Clause only if it (1) “clearly discriminates against interstate
commerce in favor of intrastate commerce,” (2) “imposes a burden on
interstate commerce incommensurate with the local benefits secured,” or (3)
“has the practical effect of ‘extraterritorial’ control of commerce occurring
entirely outside the boundaries of the state in question.” Freedom Holdings Inc.
v. Spitzer, 357 F.3d 205, 216 (2d Cir.2004).
Selevan v. New York Thruway Authority, 584 F.3d 82, 90 (2d Cir. 2009).
Defendant contends that plaintiff has failed to alleged that the operation of § 428m(a)(3)(C) leads to any of the three possible kinds of prohibited consequences outlined
above. Moreover, the dormant Commerce Clause's limitation on state power is not absolute.
See Lewis v. BT Investment Mgrs., Inc., 447 U.S. 27, 36 (1980) (“In the absence of
conflicting federal legislation the States retain authority under their general police powers to
regulate matters of legitimate local concern, even though interstate commerce may be
affected.”).
Plaintiff responds that the practical effect of § 4-28m(a)(3)(C) is to control conduct
beyond the boundaries of the State, in violation of the third prong of the dormant
Commerce Clause. See VIZIO, Inc. v. Klee, 886 F.3d 249, 255 (2d Cir. 2018) (“A state law
has unconstitutional extraterritorial effect if its practical effect ... is to control conduct
beyond the boundaries of the State.”). In an attempt to characterize § 4-28m(a)(3)(C) as
directing plaintiff’s conduct, plaintiff contends that, as a condition to having its products
sold in Connecticut, it must either refrain from selling its products to parties that conduct
business exclusively within the boundaries of another state or require such out of state
importers to submit to the Commissioner’s regulatory authority. But as VIZIO
demonstrates, mere consideration of out-of-state or nationwide activity does not violate the
extraterritoriality doctrine. Id. at 255-57. Indeed, the statute at issue in VIZIO not only
required consideration of out-of-state commerce but also imposed in-state charges based on

8

App. 44

Case 3:16-cv-01087-JAM Document 100 Filed 09/26/18 Page 9 of 10

that conduct. Nevertheless, the Second Circuit found VIZIO’s extraterritoriality arguments
unavailing:
VIZIO argues that the state's fee structure is pegged to VIZIO's national
activities, which will inevitably affect its television prices outside Connecticut.
VIZIO attempts to characterize this as control, arguing that Connecticut's E–
Waste Law, “individually and collectively with other states' e-waste laws, is
establishing a piecemeal pricing mechanism for interstate goods.” But this
practical effect amounts to no more than “upstream pricing impact” because
the law does not go “a step further [ and] control[ ] in-state and out-of-state
pricing ....” Spitzer, 357 F.3d at 221. As such, Connecticut's E–Waste Law is
merely one of “innumerable valid state laws affect[ing] pricing decisions in
other States.” Healy, 491 U.S. at 345, 109 S.Ct. 2491 (Scalia, J., concurring in
part and concurring in the judgment) (cautioning against allowing Commerce
Clause jurisprudence to “degenerate into disputes over degree of economic
effect.”). VIZIO has not alleged that Connecticut reaches out and directs
VIZIO's decision-making apparatus or that of any other interstate commercial
participant.
Id. at 256.
Here, defendant highlights that § 4-28m(a)(3)(C) is merely a reporting requirement
pertaining to sales transactions that have already occurred; it has no substantive impact
whatsoever on those transactions themselves, so the Commissioner cannot be said to have
directed plaintiff’s out-of-state conduct. See SPGGC, LLC v. Blumenthal, 505 F.3d 183, 193
(2d Cir. 2007) (“A state law may burden interstate commerce when it has the practical effect
of requiring out-of-state commerce to be conducted at the regulating state's direction.”).
Accordingly, plaintiff’s Commerce Clause claim will be dismissed.
Declaration of Compliance
For its fourth and final claim, plaintiff seeks a declaration that it has complied with
§ 4-28m(a)(3)(C). Plaintiff submits that it has provided the commissioner with a detailed and
satisfactory explanation of the reasons why the number of cigarettes for which federal excise
tax was paid cannot be reconciled for purposes of § 4-28m(a)(3)(C) with the number of
cigarettes for which the PACT Act reports were filed within the applicable margin.
9

App. 45

Case 3:16-cv-01087-JAM Document 100 Filed 09/26/18 Page 10 of 10

Defendant argues that this claim should be dismissed, as plaintiff has already
received from defendant confirmation of its compliance with § 4-28m(a)(3)(C) for the 201617 certification year and the 2017-18 certification year. Plaintiff responds that confirmation
of compliance does not render its claim for declaratory judgment moot because the
offensive conduct is capable of repetition yet evading review. See Murphy v. Hunt, 455 U.S.
478, 482-83 (1982). Plaintiff’s argument is not persuasive in the instant circumstances.
While defendant’s conduct is capable of repetition, in light of this decision, it has not evaded
review. Moreover, if defendant were to revoke plaintiff’s license based on future
noncompliance with § 4-28m(a)(3)(C), plaintiff could challenge the revocation at that time.
Accordingly, plaintiff’s claim for declaration of compliance with be dismissed.
CONCLUSION
For the foregoing reasons, defendant’s motion to dismiss is GRANTED. The Clerk
is instructed to close this case.
Dated this 26th day of September, 2018, at Bridgeport, Connecticut.

/s/Warren W. Eginton
WARREN W. EGINTON
SENIOR UNITED STATES DISTRICT JUDGE

10

App. 46

Case 3:16-cv-01087-JAM Document 101 Filed 09/27/18 Page 1 of 1

UNITED STATES DISTRICT COURT
DISTRICT OF CONNECTICUT
GRAND RIVER ENTERPRISES
SIX NATIONS LTD,
Plaintiff,
V.

CASE No. 3:16 CV 1087 (WWE)

KEVIN B. SULLIVAN
Defendant.
JUDGMENT
This matter came on for consideration of the defendant’s motion to dismiss
the second amended complaint doc. #82 before the Honorable Warren W. Eginton,
Senior United States District Judge. The Court has reviewed all of the papers filed in
conjunction with the motion and on September 26, 2018 a ruling entered granting the
relief requested.
It is therefore ORDERE ADJUDGED and DECREED that judgment is entered
in favor of the defendant Kevin B. Sullivan and the case is closed.
Dated at Bridgeport, Connecticut, this 27th day of September 2018.

ROBIN D. TABORA, Clerk
By
EOD:9/27/2018

App. 47

/s/ Kristen Gould
Kristen Gould
Deputy Clerk

Case 3:16-cv-01087-JAM Document 116 Filed 03/03/20 Page 1 of 12

UNITED STATES DISTRICT COURT
DISTRICT OF CONNECTICUT
GRAND RIVER ENTERPRISES SIX
NATIONS, LTD.,
Plaintiff,
v.

No. 3:16-cv-01087 (JAM)

JOHN BIELLO, Acting Commissioner,
Connecticut Department of Revenue Services,
Defendant.
RULING DENYING MOTION FOR RECONSIDERATION
Plaintiff Grand River Enterprises Six Nations, Ltd. (“GRE”) has filed this lawsuit against
the defendant Commissioner of the Connecticut Department of Revenue Services (“the
Commissioner”) to challenge a Connecticut statute that regulates the sale of cigarettes. 1 In order
to deter “black market” cigarette sales, the Connecticut statute—Conn. Gen. Stat. § 428m(a)(3)(C)—requires the reporting of nationwide sales and shipping information by certain
kinds of cigarette manufacturers including GRE.
GRE alleges that the Connecticut statute violates the Due Process Clause, the Commerce
Clause, and the Supremacy Clause. Judge Eginton granted the Commissioner’s motion to dismiss
the complaint. See Grand River Enterprises Six Nations Ltd. v. Sullivan, 2018 WL 4623024 (D.
Conn. 2018). GRE has filed a motion for reconsideration, and the case was later transferred to
me. For the reasons set forth below, I will deny GRE’s motion for reconsideration.

The case was originally captioned “Kevin B. Sullivan, Commissioner of Revenue Services of the State of
Connecticut.” Since the filing of the case, John Biello has been appointed the Acting Commissioner of Revenue
Services of the State of Connecticut, and he is substituted as the defendant pursuant to Fed. R. Civ. P. 25(d).

1

1

App. 48

Case 3:16-cv-01087-JAM Document 116 Filed 03/03/20 Page 2 of 12

BACKGROUND
The Commissioner of the Department of Revenue Services maintains a “Tobacco
Directory” of manufacturers who are authorized to sell their brands of cigarettes in Connecticut.
See Conn. Gen. Stat. § 4-28m. The eligibility requirements for the Tobacco Directory depend in
large part on whether a particular cigarette manufacturer has opted to comply with the terms of a
nationwide Master Settlement Agreement (“MSA”), an omnibus settlement into which most
States and the leading cigarette manufacturers entered in 1998. The MSA resolved legal claims
by the States against cigarette manufacturers for the public health costs of smoking-related
illnesses. A major part of the MSA was to require cigarette manufacturers who chose to
participate in the MSA (so-called “participating manufacturers”) to make regular payments into a
settlement fund on the basis of their volume of cigarette sales. See S&M Brands, Inc. v. Georgia
ex rel. Carr, 925 F.3d 1198, 1201 (11th Cir. 2019).
Not all cigarette manufacturers have chosen to participate in the MSA, and GRE is one of
the so-called “nonparticipating manufacturers.” As a nonparticipating manufacturer, GRE is
subject to separate statutory requirements to make payments into Connecticut’s escrow fund
based on the number of cigarettes sold in-state, which serve as security for any future smokingrelated damages claims. See Conn. Gen. Stat. § 4-28i, § 4-28l (describing state escrow
requirements and annual certification requirements applicable to “participating” and
“nonparticipating” manufacturers); see also Grand River Enterprises Six Nations, Ltd. v. Pryor,
425 F.3d 158, 162-64 (2d Cir. 2005) (describing operation of the MSA and regulatory
consequences for both “participating” and “nonparticipating” manufacturers).
Over the years GRE has filed many challenges to the MSA and to related statutes that
regulate its activities as a nonparticipating manufacturer. See, e.g., Grand River Enter. Six
2

App. 49

Case 3:16-cv-01087-JAM Document 116 Filed 03/03/20 Page 3 of 12

Nations, Ltd. v. Pryor, 481 F.3d 60, 62 & n. 1 (2d Cir. 2007) (per curiam) (listing lawsuits by
GRE). In this action GRE focuses on recent amendments to Conn. Gen. Stat. § 4-28m(a)(3)(C),
which applies to nonparticipating manufacturers like GRE.
Section 4-28m(a)(3)(C) provides in relevant part that the Commissioner of Revenue
Services may not include or retain on the Tobacco Directory any brand family of a
nonparticipating manufacturer if the Commissioner concludes there is an unsatisfactory
discrepancy between the reported number of a non-participating manufacturer’s cigarettes that
have been sold nationwide and those that have been shipped nationwide. Ibid. The statute
provides for the measurement of this sales-vs.-shipping discrepancy by reference to cigarette
sales as shown on federal excise tax returns and by reference in part to interstate cigarette
shipments that are reported under a separate federal statute, known as the Prevent All Cigarette
Trafficking Act (the “PACT Act”), 15 U.S.C. § 375 et seq. 2
As Judge Eginton observed in his initial ruling, the “legitimate legislative purpose” for
section 4-28m(a)(3)(C) is “to grant state certification only to those manufacturers that can

2

Conn. Gen. Stat. § 4-28m(a)(3)(C) provides as follows:
The commissioner [of Revenue Services in Connecticut] shall not include or retain in the
directory any brand family of a nonparticipating manufacturer if the commissioner
concludes … (C) a nonparticipating manufacturer’s total nation-wide reported sales of
cigarettes on which federal excise tax is paid exceeds the sum of (i) its total interstate sales,
as reported under 15 U.S.C. § 375 et seq., as from time to time amended, or those made by
its importer, and (ii) its total intrastate sales, by more than two and one-half per cent of its
total nation-wide sales during any calendar year, unless the nonparticipating manufacturer
cures or satisfactorily explains the discrepancy not later than ten days after receiving notice
of the discrepancy.

Although the statute on its face requires a comparison only of cigarette “sales” figures, GRE alleges that the
underlying records referenced by the statute reflect “shipment” figures, thus entailing a comparison between sales
figures and shipment figures. GRE’s second amended complaint alleges that the statute “purport[s] to authorize
revocation of Plaintiff’s right and license to have its tobacco products sold in Connecticut, if Plaintiff’s regulatory
filings cannot reconcile the number of products sold nationwide by importers of its products (as measured by the
importer’s national federal excise tax returns) with the number of products shipped by these importers throughout
the United States in Interstate Commerce (as evidenced federal shipping reports required under federal law).” Doc.
#74 at 1 (¶ 2) (emphasis added).

3

App. 50

Case 3:16-cv-01087-JAM Document 116 Filed 03/03/20 Page 4 of 12

effectively track their cigarette sales, and can demonstrate, through diligent recordkeeping, that
the vast majority of their cigarettes are being sold to distributors or retailers that comply with
applicable federal and state reporting and taxation requirements.” Grand River Enterprises, 2018
WL 4623024, at *2. Hence, the statute serves Connecticut’s interest in deterring contraband
cigarette sales—sales that evade state taxation as well as diminish payments to the escrow fund
for any future damages claims.
To verify a nonparticipating manufacturer’s certification of compliance pursuant to
section 4-28l, section 4-28m(a)(3)(C) requires the Commissioner to reach a conclusion about
whether there is an unsatisfactory discrepancy between reported sales and shipments. See Conn.
Gen. Stat. § 4-28m(a)(3)(C), § 4-28l(a) & (d)(3) (requiring certification by nonparticipating
manufacturer with terms of regulatory statute including section 4-28m). If there is a discrepancy,
it is undisputed that the Commissioner may seek additional information from nonparticipating
manufacturers such as GRE in order to determine whether any such discrepancy can be
satisfactorily explained.
GRE’s second amended complaint alleges that section 4-28m(a)(3)(C) violates the Due
Process Clause, the Commerce Clause, and the Supremacy Clause. Doc. #74. Judge Eginton
rejected all these claims and granted the Commissioner’s motion to dismiss. Grand River
Enterprises, 2018 WL 4623024; Doc. #100.
GRE’s motion for reconsideration seeks reconsideration of just two aspects of Judge
Eginton’s ruling. Doc. #102. First, GRE seeks reconsideration of the dismissal of its Commerce
Clause claim insofar as Judge Eginton ruled that the Connecticut law did not improperly regulate
extraterritorial conduct. Second, GRE seeks reconsideration of the dismissal of its Supremacy
Clause claim, arguing that the prior ruling improperly relied on extrinsic evidence that may not
4

App. 51

Case 3:16-cv-01087-JAM Document 116 Filed 03/03/20 Page 5 of 12

be considered at the stage of a preliminary motion to dismiss. My ruling here will address only
these two reconsideration arguments.
DISCUSSION
Motions for reconsideration are disfavored unless a party can show that the Court
overlooked facts or law in a manner that has led to a clear error or manifest injustice. A motion
for reconsideration is not an occasion for a losing party simply to re-litigate arguments that were
previously raised and considered by the Court. See generally Analytical Surveys, Inc. v. Tonga
Partners, L.P., 684 F.3d 36, 52 (2d Cir. 2012); Shrader v. CSX Transp., 70 F.3d 255, 257 (2d
Cir. 1995).
Commerce Clause
GRE argues that section 4-28m(a)(3)(C) imposes reporting requirements that amount to
extraterritorial control over the business activities of GRE and third-party importers of GRE’s
cigarettes outside of Connecticut. Judge Eginton rejected this argument, and GRE argues that in
doing so Judge Eginton misapplied the Second Circuit’s decision in VIZIO, Inc. v. Klee, 886 F.3d
249 (2d Cir. 2018). In VIZIO, the Second Circuit dismissed a Commerce Clause challenge to the
manner in which Connecticut calculated the fee to be imposed on certain electronics product
manufacturers for the costs incurred by the State to recycle their products. In that case, the
Connecticut law based the state fee calculation on each manufacturer’s national market share
rather than each manufacturer’s market share only within Connecticut. The VIZIO plaintiff
argued that to do so was to directly regulate its out-of-state sales and to control its conduct
outside of the state’s boundaries, and that the state law affected its out-of-state pricing decisions.
VIZIO, 886 F.3d at 253. According to the Second Circuit, basing the in-state fee on out-of-state
sales did not amount to the regulation of conduct occurring outside Connecticut, because the law
5

App. 52

Case 3:16-cv-01087-JAM Document 116 Filed 03/03/20 Page 6 of 12

“does nothing to control interstate commerce, but rather merely considers out-of-state activity in
imposing in-state charges.” Id. at 256.
Judge Eginton did not misapply VIZIO or otherwise err by relying on VIZIO. Although
the facts and regulatory framework in VIZIO are not the same as those presented here, the
reasoning of VIZIO applies with equal force in this case. Section 4-28m(a)(3)(C) on its face
attaches regulatory significance to activity that has occurred outside of Connecticut but does not
go so far as to mandate or control any extraterritorial commercial activity. The most that can be
said is that section 4-28m(a)(3)(C) tasks GRE with gathering sales or shipping information from
out-of-state importers and distributors of its cigarettes so that GRE in turn may certify its
compliance with sections 4-28h to 4-28j, inclusive, and submit the required data, if necessary, for
the Connecticut Commissioner to evaluate any discrepancy under section 4-28m(a)(3)(C).
“A state law has unconstitutional extraterritorial effect if its ‘practical effect … is to
control conduct beyond the boundaries of the State.’” VIZIO, 886 F.3d at 255 (quoting Healy v.
Beer Inst., Inc., 491 U.S. 324, 336 (1989)). Thus, for example, “the Commerce Clause dictates
that no State may force an out-of-state merchant to seek regulatory approval in one State before
undertaking a transaction in another.” Grand River, 425 F.3d at 170 (quoting Healy, 491 U.S. at
337); see also Freedom Holdings, Inc. v. Cuomo, 624 F.3d 38, 67 (2d Cir. 2010) (same). On the
other hand, “[c]ourts have consistently recognized that ‘[t]he mere fact that state action may have
repercussions beyond state lines is of no judicial significance so long as the action is not within
that domain which the Constitution forbids.’” Ibid. (quoting Osborn v. Ozlin, 310 U.S. 53, 62
(1940)).
Section 4-28m(a)(3)(C) does not control or regulate any of GRE’s out-of-state
commercial activity. GRE does not point to any precedent to suggest that a State engages in the
6

App. 53

Case 3:16-cv-01087-JAM Document 116 Filed 03/03/20 Page 7 of 12

“control” of conduct beyond its borders when, as GRE alleges here, the State conditions the right
of a business to conduct in-state activity on the business’s disclosure and reporting of
information concerning its out-of-state activities.
It would not violate the Commerce Clause, for example, if Connecticut demanded that an
applicant for a business license disclose whether he had been criminally convicted in California.
Nor does it make a difference whether section 4-28m(a)(3)(C) may require a manufacturer to
gather information about the sale and shipping of its products from its out-of-state business
partners (such as requiring GRE to obtain information from GRE’s cigarette importers and
distributors). Section 4-28m(a)(3)(C) at most creates repercussions for the out-of-state activities
of GRE and its importers but falls well short of actually controlling out-of-state business activity
in violation of the Commerce Clause.
Moreover, as both the Second Circuit and Supreme Court have made clear, the “practical
effect” of a State regulation “must be evaluated not only by considering the consequences of the
statute itself, but also by considering how the challenged statute may interact with the legitimate
regulatory regimes of other States and what effect would arise if not one, but many or every,
State adopted similar legislation,” because “[g]enerally speaking, the Commerce Clause protects
against inconsistent legislation arising from the projection of one state regulatory regime into the
jurisdiction of another State.” Grand River, 425 F.3d at 170 (quoting Healy, 491 U.S. at 336-37).
Here, because section 4-28m(a)(3)(C) requires the reporting of information that is already
independently subject to federal reporting requirements (whether on federal excise tax forms or
pursuant to PACT), there can be no plausible claim that section 4-28m(a)(3)(C) amounts to an
improper projection of Connecticut’s regulatory authority to encroach upon any regulatory
interests of other States.
7

App. 54

Case 3:16-cv-01087-JAM Document 116 Filed 03/03/20 Page 8 of 12

Even taking as true GRE’s factual allegations in its second amended complaint, any
practical effect on GRE’s out-of-state activity is necessarily de minimis because the information
that section 4-28m(a)(3)(C) requires to be reconciled—nationwide transactions of cigarettes as
reported in federal reporting forms and under PACT Act—is based on information that GRE
must collect from its importers and distributors as a nonparticipating manufacturer who must
comply with Connecticut’s escrow statute. See Doc. #74 at 20 (¶ 91) (alleging in its second
amended complaint that GRE has been threatened with removal from the Tobacco Directory “if
GRE fails to report to DRS its total nationwide cigarette sales as reported by GRE’s importers in
their PACT Act reports and their federal tax return information contained in TBB Form
5220.6”). 3
Indeed, as GRE itself alleges in the complaint, a nonparticipating manufacturer like GRE
must make escrow payments to each State, and those escrow payments are based on the number
of cigarettes sold within each state. Doc. #74 at 5-6 (¶ 19). If GRE’s escrow payments to a
certain State exceed what it would pay if GRE were a participating manufacturer under the MSA,
then GRE would be entitled to a refund. Ibid. (citing Conn. Gen. Stat. §§ 4-28h et seq. to
describe escrow requirements). 4 Yet the amount that GRE would pay if were a participating
Pursuant to the PACT Act, all persons who sell, transfer, or ship cigarettes in interstate commerce for profit must:
(1) register with the tobacco tax administrator of the state into which shipment is made and (2) file monthly reports
with the tobacco tax administrator. . . identifying the brands, quantities, and recipients of cigarette and smokeless
tobacco shipments into such state. 15 U.S.C. §§ 375, et seq. Moreover, the Court takes judicial notice that TTB
Form 5220.6—which is expressly referenced in GRE’s second amended complaint as part of its Commerce Clause
claim—is a monthly submission requiring importers to report the number of cigarettes and other tobacco products.
See Doc. #74 (¶ 91); Alcohol and Tobacco Tax and Trade Bureau, Form 5220.6, U.S. Department of the Treasury,
https://www.ttb.gov/resources/publications/forms; see also Doc. #74 (¶¶34-36) (describing GRE’s submission of the
TTB Forms 5220.6 to the Commissioner in response to its request for its reconciliation data under section
4-28m(a)(3)(C)).
4
See Conn. Gen. Stat. § 4-28i(a)(1) (“Any tobacco product manufacturer selling cigarettes to consumers within this
state, whether directly or through a distributor, dealer or similar intermediary or intermediaries, after July 1, 2000,
shall (A) become a participating manufacturer . . . or (B) place into a qualified escrow fund not later than April
fifteenth of the year following the year in question [$.0188482 per unit sold].”); Conn. Gen. Stat. § 4-28i(b)(2)
(“[T]o the extent that a tobacco product manufacturer [that places funds into escrow pursuant to subsection (a) of
this section] establishes that the amount it was required to place into escrow on account of units sold in this state in a
3

8

App. 55

Case 3:16-cv-01087-JAM Document 116 Filed 03/03/20 Page 9 of 12

manufacturer under the MSA is determined in part by GRE’s national market share. 5 In other
words, to claim credit for any overpayments to the Connecticut escrow account, GRE would
necessarily need to rely on its national market share information.
Thus, as the Commissioner notes, “[a]ll of the sales information that Plaintiff must collect
from its importers and distributors regarding either interstate sales or intrastate sales of its brands
is data that importers and distributors must already submit to state revenue departments pursuant
to either federal law (the PACT Act) or state law.” Doc. #95 at 12. In light of this regulatory
context, it is impossible to conclude that the practical effect of section 4-28m(c)(3)(A) is an
improper control by Connecticut of out-of-state business activities. See Freedom Holdings, Inc.
v. Spitzer, 357 F.3d 205, 220 (2d Cir. 2004) (rejecting Commerce Clause extraterritoriality
challenge to New York State cigarette regulation because “[t]he extraterritorial effect described
by appellants amounts to no more than the upstream pricing impact of a state regulation”).
GRE further argues that Judge Eginton failed to credit the allegations of the complaint as
a court is required to do when evaluating a Rule 12 motion to dismiss. But a court is not required
to accept legal conclusions or conclusory factual allegations. See, e.g., Ashcroft v. Iqbal, 556
U.S. 662, 678 (2009); Mastafa v. Chevron Corp., 770 F.3d 170, 177 (2d Cir. 2014) (same).
Notwithstanding the hyperbole in GRE’s complaint about the effect of section 4-28m(a)(3)(C),

particular year was greater than the Master Settlement Agreement payments, as determined pursuant to section IX(i)
of said agreement including after final determinations of all adjustments, that such manufacturer would have been
required to make on account of such units sold had it been a participating manufacturer, the excess shall be released
from escrow and revert back to such tobacco product manufacturer. . . .”).
5
See Freedom Holdings, 624 F.3d at 67 (noting that “escrow payments are still keyed, in part, to MSA payments,
which in turn depend on national market share” but rejecting plaintiffs’ Commerce Clause challenge to New York’s
escrow statute); KT.& G Corp v. Attorney Gen. of State of Okla., 535 F.3d 1114, 1143-46 (10th Cir. 2008) (same).

9

App. 56

Case 3:16-cv-01087-JAM Document 116 Filed 03/03/20 Page 10 of 12

GRE has not alleged facts that give plausible grounds to grant relief in light of the regulatory
framework as described above that governs the consideration of its claims. 6
In short, Judge Eginton correctly concluded that section 4-28m(a)(3)(C) “is merely a
reporting requirement pertaining to sales transactions that have already occurred,” and “it has no
substantive impact whatsoever on those transactions themselves, so the Commissioner cannot be
said to have directed plaintiff’s out-of-state conduct.” Grand River, 2018 WL 4623024, at *5.
Accordingly, I will deny GRE’s motion to reconsider the dismissal of its Commerce Clause
claim.
Supremacy Clause
GRE next argues that Judge Eginton erroneously relied on extrinsic evidence to dismiss
GRE’s claim under the Supremacy Clause that section 4-28m(a)(3)(C) is inconsistent with, and
thereby preempted by, the PACT Act. GRE points to a sentence in Judge Eginton’s ruling in
which he noted that GRE itself “has continuously complied with the challenged statute for the
past two years, as have the other three similarly situated manufacturers that are listed on the
Connecticut Tobacco Directory.” Grand River, 2018 WL 4623024, at *4. According to GRE, it

As the Second Circuit in VIZIO explained,
In Grand River [v. Pryor], we allowed plaintiffs' extraterritoriality claim to
proceed under a national market share theory. [425 F.3d 158, 173 (2d Cir. 2005)].
Unlike the plaintiffs in Grand River, however, VIZIO has not made any of the
allegations that we suggested in Grand River could give rise to a viable claim:
“that the [E–Waste Law is] inconsistent with the legitimate regulatory regimes of
other states, that the [E–Waste Law] force[s] out-of-state merchants to seek
[Connecticut] regulatory approval before undertaking an out-of-state transaction,
or that any sort of interstate regulatory gridlock would occur if many or every
state adopted similar legislation.” Id. at 171 (quoting Freedom Holdings, Inc. v.
Spitzer, 357 F.3d 205, 221 (2d Cir. 2004)]).
VIZIO, 886 F.3d at 257. Like the plaintiff in VIZIO, GRE does not plausibly make those allegations—that section
4-28m(a)(3)(C) is inconsistent with the regulatory regimes of other states, that it forces out-of-state merchants to
seek Connecticut regulatory approval before undertaking an out-of-state transaction, or that any sort of interstate
regulatory gridlock would occur if many or every state adopted similar legislation. See Doc. #74 at 1-20 (¶¶ 1-94).
6

10

App. 57

Case 3:16-cv-01087-JAM Document 116 Filed 03/03/20 Page 11 of 12

was improper at the preliminary motion-to-dismiss stage of this litigation for Judge Eginton to
rely on any fact-based reference to “three similarly situated manufacturers” who are listed on the
Tobacco Directory.
I conclude that any error was not material as to whether there is a preemption conflict
between section 4-28m(a)(3)(C) and the PACT Act. According to GRE, section 4-28m(a)(3)(C)
requires a comparison and reconciliation of out-of-state sales and shipping data, which conflicts
with the PACT Act because the PACT Act exempts some of the necessary data (non-interstate
sales) from its reporting requirements. Doc. #86 at 33-36. But the fact that Connecticut seeks
certain sales and shipping information that goes beyond what the PACT Act otherwise requires
to be reported does not mean that the Connecticut law is in conflict with the PACT Act, much
less that it is impossible to comply with both statutes. Indeed, to the extent that GRE complains
that certain data may not be available to submit to Connecticut because it is not required to be
reported under the PACT Act, Connecticut’s section 4-28m(a)(3)(C) anticipates this concern by
allowing GRE to furnish a satisfactory explanation for any discrepancy in the comparison of
sales and shipping data. Because GRE has not otherwise alleged facts that plausibly support a
preemption conflict between section 4-28m(a)(3)(C) and the PACT Act, any possible error in the
initial ruling with respect to reliance on extrinsic evidence does not warrant reconsideration of
the dismissal of the Supremacy Clause claim.
CONCLUSION
For the reasons set forth in this ruling, the Court DENIES plaintiff GRE’s motion for
reconsideration of the dismissal of its claims under the Commerce Clause and the Supremacy
Clause. Doc. #102. Pursuant to Fed. R. Civ. P. 25(d), the Clerk of Court shall amend the official
case caption as reflected in the caption above to substitute the Acting Commissioner of Revenue
11

App. 58

Case 3:16-cv-01087-JAM Document 116 Filed 03/03/20 Page 12 of 12

Services John Biello as the defendant in place of former Commissioner Kevin Sullivan who was
initially named as the defendant in this action.
It is so ordered.
Dated this 3rd day of March 2020.
/s/Jeffrey Alker Meyer
Jeffrey Alker Meyer
United States District Judge

12

App. 59

Case 20-1044, Document 78, 03/24/2021, 3062921, Page1 of 1

UNITED STATES COURT OF APPEALS
FOR THE

SECOND CIRCUIT
_____________________________________________
At a stated term of the United States Court of Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York, on the
24th day of March, two thousand twenty-one.
________________________________________
Grand River Enterprises Six Nations, Ltd.,
Plaintiff-Appellant,

ORDER

v.

Docket No: 20-1044

Mark Boughton, Commissioner, Connecticut Department
of Revenue Services,
Defendant-Appellee.
_______________________________________
Appellant, Grand River Enterprises Six Nations, Ltd., filed a petition for panel rehearing,
or, in the alternative, for rehearing en banc. The panel that determined the appeal has considered
the request for panel rehearing, and the active members of the Court have considered the request
for rehearing en banc.
IT IS HEREBY ORDERED that the petition is denied.
FOR THE COURT:
Catherine O'Hagan Wolfe, Clerk

App. 60

